     Office of Inspector General

     Audit Report




              WATER


MISSISSIPPI==S WATER QUALITY STANDARDS,
      MONITORING AND REPORTING




          Report No. 1999-P00219

            September 29, 1999
Inspector General Division
 Conducting the Audit:       Southern Audit Division

Region Covered:              Region 4

Program Office Involved:     Water Management Division
              UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                             OFFICE OF INSPECTOR GENERAL
                              SOUTHERN AUDIT DIVISION
                           61 FORSYTH STREET, ROOM 16T70
                                 ATLANTA, GA 30303
                               (404) 562-9830
                              (404) 562-9828 Fax



                                        September 29, 1999

MEMORANDUM

SUBJECT:       Mississippi=s Water Quality Standards, Monitoring, and Reporting
               Final Audit Report 1999-P00219

FROM:          Mary M. Boyer /s/
               Divisional Inspector General

TO:            John H. Hankinson, Jr.
               Regional Administrator
               Region 4

       Attached is a final audit report prepared by the Environmental Protection Agency=s (EPA)
Office of Inspector General (OIG). This report contains the results of our review of Mississippi=s
water quality program and Region 4's oversight of the State=s water quality standards, monitoring,
and reporting.

        Generally, Mississippi=s current water quality standards and monitoring provide basic
protection for most of the State=s waters. We further concluded that Mississippi had established
an adequate process for developing and adopting water quality standards. However, standards
and related procedures adopted by the State did not always provide protection of the State=s
waters as stipulated in EPA guidance. The State=s water quality monitoring was very limited prior
to 1997. Since 1997, the monitoring program has seen dramatic improvements due to increased
resources. However, at the time of our review, a few additional improvements would have made
the State=s water quality monitoring more effective. Improvement were also needed in the State=s
timely completion and submission of water quality reports. Late reports do not serve as an
effective tool for managing the State=s water quality program. Finally, Region 4 needs to provide
more aggressive oversight and technical assistance to resolve problems with the State=s standards
and water quality reporting. Some of these problems have existed for 10 years or more.

        This report contains findings that describe problems the OIG has identified and corrective
actions the OIG recommends. Final determinations on matters in this report will be made by EPA
managers in accordance with established EPA audit resolution procedures. Accordingly, the
findings described in this audit report do not necessarily represent the final EPA position.
ACTION REQUIRED

        We issued a draft report to you and the State of Mississippi on August 4, 1999, and
received your response on September 8, 1999. Mississippi did not provide a written response but
did provide editorial comments on September 7, 1999. Your response indicated general
agreement with the findings and recommendations presented in the draft report. Your response
also included actions completed on the recommendations, as well as milestone dates for
completion of planned actions. Therefore, the response is considered adequate to resolve all of
the final report=s recommendations in accordance with EPA Order 2750. No further response is
required from your office. The audit will be closed in the OIG=s audit tracking system upon
issuance of the final report.

        Your response also provided concerns related to specific statements in the draft report.
Changes were made in the final report, as deemed appropriate, to address any concerns or
disagreements expressed in your response and the State=s comments on the draft report. Certain
responses and comments by Region 4 and the State were incorporated into applicable sections of
the report. Your response has been included in its entirety as Appendix I.

        We have no objections to the further release of this report to the public. Should you or
your staff have any questions, please contact me or John Price at (404) 562-9830.

Attachment
                                             Mississippi== s Water Quality Standards,
                                                            Monitoring, and Reporting


               EXECUTIVE SUMMARY


INTRODUCTION     Clean and safe water, capable of sustaining human health
                 and aquatic life, is one of EPA=s ten strategic goals. Under
                 requirements of the Clean Water Act, EPA and states have
                 developed water quality programs. The principal goals of
                 the Act and State water quality programs are to: (i) restore
                 and maintain the chemical, physical, and biological integrity
                 of State waters; (ii) achieve water quality that promotes the
                 protection of fish, shellfish, wildlife, and recreation; and (iii)
                 consider the use and value of state waters for public water
                 supplies, propagation of fish and wildlife, recreation,
                 agriculture and industrial/navigational purposes. State
                 programs include the establishment of water quality
                 standards, identifying the current planned uses of surface
                 waters, and monitoring the quality of state waters in relation
                 to their intended uses. EPA and states use information from
                 these water quality programs to measure the effectiveness
                 of other water programs in controlling and reducing water
                 pollution.

                 This audit is one in a series of state water quality audits
                 conducted by the OIG to develop a national assessment of
                 state water quality programs.


OBJECTIVES       The overall objective of the audit was to determine whether
                 Mississippi=s water quality program met the principal goals
                 of the Clean Water Act. Specific objectives were to
                 determine if:

                 P       The state had adequate procedures to establish
                         water quality standards that will protect the state=s
                         water quality;

                 P       The state had an adequate process to test and assess
                         the quality of all appropriate waters in the state;

                 P       State reports on water quality were complete,
                         accurate and useful to program management; and

                 P       Region 4 had implemented effective procedures to


                        i                                  Report No. 1999-P00219
                                                                                 Mississippi== s Water Quality Standards,
                                                                                                Monitoring, and Reporting


                                                          approve state water quality standards and evaluate
                                                          the state=s water quality standards setting, testing,
                                                          assessing and reporting.


RESULTS IN BRIEF                                Mississippi=s current water quality standards and monitoring
                                                processes provide basic protection of the State=s waters.
                                                Establishing protective standards and providing a
                                                fundamental monitoring program has taken many years for
                                                the State and EPA to complete. Even so, some standards
                                                and related procedures adopted by the State still do not
                                                provide protection of the State=s waters as stipulated in
                                                EPA guidance. The State=s water quality monitoring
                                                program was very limited prior to 1997. Increased State
                                                funding has resulted in dramatic improvements in the State=s
                                                water quality monitoring. However, at the time of our
                                                review, a few additional improvements would have made
                                                the State=s monitoring program more effective. Completion
                                                and submission of water quality reports also needs
                                                improvement. While Mississippi=s water quality reports are
                                                generally accurate, Mississippi has been consistently late, up
                                                to two years in some cases, in completing water quality
                                                reports as required by the Clean Water Act and EPA
                                                regulations. These reports serve as a guide for planning and
                                                managing the State=s water quality program. Late reports
                                                reduce the effectiveness of these reports as a management
                                                tool. Finally, Region 4 took almost five years to review and
                                                approve water quality standards initially adopted by the
                                                State in February 1994. Region 4 has not provided the
                                                oversight and technical assistance needed to timely resolve
                                                problems with the State=s standards that have existed for 10
                                                years or more.


RECOMMENDATIONS                                 We recommend the Regional Administrator:

                                                          P         Assist Mississippi in completing the use
                                                                    attainability analysis1 (UAA) for the
                                                                    Escatawpa River as currently scheduled.
                                                                    Request that Mississippi update its water and
1
  Use attainability analysis is a structured scientific assessment of the factors affecting the attainment of the designated
use for a waterbody which may include physical, chemical, biological, and economic factors.



                                                         ii ii                                   Report No. 1999-P00219
                                                           Mississippi== s Water Quality Standards,
                                                                          Monitoring, and Reporting


                                                 quality standard for pentachlorophenol and
                                                 adopt adequate antidegradation
                                                 implementation procedures that fully support
                                                 the intent of the Clean Water Act.

                                          P      Assist Mississippi in developing a long-term
                                                 monitoring strategy and management plan to
                                                 incorporate more advance monitoring
                                                 techniques and ensure that the State
                                                 comprehensively monitors the quality of its
                                                 waters.

                                          P      Request that Mississippi place more priority
                                                 on timely completion of required water
                                                 quality reports. Assist State in establishing a
                                                 process for properly scheduling and
                                                 preparing water quality reports so that future
                                                 reports are submitted to EPA on the
                                                 required dates.

                                          P      Develop procedures that ensure a timely
                                                 review and approval/disapproval of
                                                 Mississippi=s water quality standards and
                                                 related policies. Provide more aggressive
                                                 oversight and technical assistance to ensure
                                                 that problems with water quality standards
                                                 and policies are timely resolved.


AGENCY AND STATE                   Region 4 generally agreed with the findings and
COMMENTS AND                       recommendations in the draft report and provided
OIG EVALUATION                     completed and planned actions in response to the
                                   recommendations. However, the Region did request
                                   changes to certain statements in the report. The State of
                                   Mississippi did not provide a formal response but did
                                   provide editorial comments related to the draft report
                                   findings and recommendations. Changes were made in the
                                   final report as deemed appropriate.


    Portions of the Region=s
    response were incorporated
    into appropriate chapters of
    the report. Region 4's

                                         iii                             Report No. 1999-P00219
                                                               Mississippi== s Water Quality Standards,
                                                                              Monitoring, and Reporting


response is included in its
entirety in Appendix I.




                              (This page intentionally left blank.)




                                           iv                                Report No. 1999-P00219
                                                                                                  Mississippi== s Water Quality Standards,
                                                                                                                 Monitoring, and Reporting


                                             TABLE OF CONTENTS

                                                                                                                                 Page

EXECUTIVE SUMMARY........................................................................................................ i
ABBREVIATIONS ................................................................................................................. vii

CHAPTERS

1         INTRODUCTION........................................................................................................... 1
               Purpose................................................................................................................ 1
               Background ......................................................................................................... 2
               Scope and Methodology....................................................................................... 4
               Prior Audit Experience......................................................................................... 5

2         MISSISSIPPI=S STANDARDS WERE NOT ALWAYS AS PROTECTIVE OF ITS
          WATERS AS SHOULD BE............................................................................................ 7
                Extended Regional Review Allowed Inadequate Standards to Remain
                       Uncorrected.............................................................................................. 7
                Certain Water Quality Criteria Remain Less Stringent Than EPA Requirements ... 8
                Mississippi Did Not Perform Triennial Review to Update Standards................... 10
                Mississippi Has Not Developed Acceptable Implementation Procedures for the
                       State=s Antidegradation Policy ................................................................ 10
                Recommendations .............................................................................................. 12
                Agency and State Comments and OIG Evaluation .............................................. 12

3         MISSISSIPPI=S MONITORING PROGRAM HAS PROGRESSED SIGNIFICANTLY
          BUT IMPROVEMENTS ARE STILL POSSIBLE........................................................ 15
                Mississippi=s Monitoring Program Is Evolving .................................................... 15
                Analysis of the State=s Data on Lake Waters Could Be Useful ............................ 16
                Mississippi Could Utilize More Advanced Monitoring Techniques...................... 17
                Recommendations .............................................................................................. 17
                Agency and State Comments and OIG Evaluation .............................................. 18

4         MISSISSIPPI NEEDS TO ADHERE TO REQUIRED TIME FRAMES FOR
          WATER QUALITY REPORTS .................................................................................... 21
                Background ....................................................................................................... 21
                Mississippi Consistently Late In Completing Water Quality Reports ................... 22
                Recommendations .............................................................................................. 23
                Agency and State Comments and OIG Evaluation .............................................. 24




                                                                        v                                          Report No. 1999-P00219
                                                                                          Mississippi== s Water Quality Standards,
                                                                                                         Monitoring, and Reporting


5    REGION 4 NEEDS TO STRENGTHEN OVERSIGHT AND TECHNICAL
     ASSISTANCE FOR MISSISSIPPI=S WATER QUALITY STANDARDS .................... 25
          Certain Water Quality Criteria/Policies Have Remained Unapproved by EPA
                 for 10 Years or More.............................................................................. 25
          Region 4 Did Not Timely Review and Approve/Disapprove Standards ............... 27
          Resolution of Concerns With Water Quality Standards Has Not Been a
                 Regional Priority..................................................................................... 28
          Recommendations .............................................................................................. 29
          Agency and State Comments and OIG Evaluation .............................................. 29

APPENDICES

I    AGENCY RESPONSE AND OIG EVALUATION....................................................... 31

II   DISTRIBUTION........................................................................................................... 47




                                                                vi                                         Report No. 1999-P00219
                                                             Mississippi== s Water Quality Standards,
                                                                            Monitoring, and Reporting




                              ABBREVIATIONS

CFR             Code of Federal Regulations

EPA             Environmental Protection Agency

FWS             U.S. Fish and Wildlife Service

FY              Fiscal Year

MDEQ            Mississippi Department of Environmental Quality

mg/l            Milligrams per Liter

OIG             Office of Inspector General

TMDL            Total Maximum Daily Load

UAA             Use Attainability Analysis

303(d) List     Impaired Waterbody List

305(b) Report   Water Quality Assessment Report




                                              vii                          Report No. 1999-P00219
                                        Mississippi== s Water Quality Standards,
                                                       Monitoring, and Reporting




(This page intentionally left blank.)




                    viii                              Report No. 1999-P00219
                                                  Mississippi== s Water Quality Standards,
                                                                 Monitoring, and Reporting


                           CHAPTER 1

                       INTRODUCTION



PURPOSE                Clean and safe water, capable of sustaining human health
                       and aquatic life, is one of EPA=s ten strategic goals. Under
                       requirements of the Clean Water Act, EPA and states have
                       developed water quality programs. The principal goals of
                       the Act and State water quality programs are to: (i) restore
                       and maintain the chemical, physical, and biological integrity
                       of State waters; (ii) achieve water quality that promotes the
                       protection of fish, shellfish, wildlife, and for recreation; and
                       (iii) consider the use and value of State waters for public
                       water supplies, propagation of fish and wildlife, recreation,
                       agriculture and industrial/navigational purposes. State
                       programs include establishing water quality standards,
                       identifying the current planned uses of surface waters, and
                       monitoring the quality of state waters in relation to their
                       intended uses. EPA and states use information from these
                       water quality programs to measure the effectiveness of
                       other water programs in controlling and reducing water
                       pollution.

                       Our overall objective was to determine if Mississippi=s
                       water quality program effectively protected the State=s
                       surface waters and met the principal goals of the Clean
                       Water Act. More specifically, the audit objectives were to
                       identify whether:

                       P       Mississippi implemented procedures to develop
                               water quality standards that will protect its water
                               quality;

                       P       Mississippi implemented procedures to test and
                               assess the quality of all appropriate waters in the
                               State;

                       P       State reports on water quality were complete,
                               accurate, and useful for program management; and


Region 4 implemented   The Clean Water Act is the primary legislation addressing

                              1                                 Report No. 1999-P00219
                                                                                       Mississippi== s Water Quality Standards,
                                                                                                      Monitoring, and Reporting


         effective procedures to                        water quality programs. The Act=s goal is to restore and
         evaluate Mississippi=s water                   maintain the Nation=s surface waters2. The Clean Water
         quality standards, monitoring                  Act requires states to adopt water quality standards for all
         and                                            surface waters within their boundaries. These standards are
         reporting.BACKGROUND                           an important basis for state actions to control and remedy
                                                        water pollution. The standards include a use designation
                                                        for each water body, criteria necessary to protect the use,
                                                        and an anti-degradation policy.

                                                        States classify their water bodies according to how the
                                                        water can be used. These Adesignated uses@ include
                                                        drinking water, protection and propagation of aquatic life,
                                                        and recreation, i.e., swimming, boating. Once the
                                                        designated use of a water body is determined, the Act
                                                        requires the State to develop water quality criteria for that
                                                        use. Water quality criteria identify the amount of
                                                        contamination that may be present in the water without
                                                        impacting the designated use.

                                                        EPA published Federal guidance that set numerical criteria
                                                        for 104 toxic pollutants and 30 other pollutants. These
                                                        limits are based on the effect the pollutants have on the
                                                        water=s use. States must either adopt this Federal criteria or
                                                        develop their own scientifically defensible criteria that is at
                                                        least as stringent.

                                                        The Clean Water Act also requires State water quality
                                                        standards to include an anti-degradation policy. Title 40,
                                                        Code of Federal Regulations (CFR) Part 131.12, requires
                                                        States to identify the implementation methods for this
                                                        policy. The purpose of an antidegradation policy is to
                                                        conserve, maintain, and protect existing water quality,
                                                        including water bodies of exceptionally high quality such as
                                                        those found in National and State Parks.

                                                        The Clean Water Act requires states to review their water
                                                        quality standards at least once every three years and (1)
                                                        address emerging issues, (2) ensure that water body uses
                                                        are consistent with the Clean Water Act, and (3) develop
                                                        criteria based on best available science. EPA is required to

2
  Surface waters include rivers, streams, lakes, oceans, estuaries, and wetlands. Groundwater is not included in the
definition of surface waters.

                                              review and approve/disapprove all standards. If EPA

                                                                2                                      Report No. 1999-P00219
                                                                              Mississippi== s Water Quality Standards,
                                                                                             Monitoring, and Reporting


                                     disapproves a state=s water quality standards, it is required
                                     to promulgate new standards. This includes promulgation
                                     of an antidegradation policy if the policy proposed by the
                                     state is not acceptable.

                                     40 CFR 130 requires states to develop a monitoring
                                     program to assess whether their waters meet water quality
                                     standards. State water quality monitoring programs track
                                     environmental progress and generate important information
                                     for managing the state=s water quality activities.

                                     Under the Clean Water Act, each state must prepare and
                                     submit to EPA biennially, a water quality assessment report
                                     referred to as the 305(b) report and a list of impaired waters
                                     referred to as the 303(d) list. EPA uses the state water
                                     quality assessments to measure achievement of its goal of
                                     clean and safe water.

                                     If a water body does not meet its water quality standards,
                                     the state classifies the water body as impaired. The Clean
                                     Water Act requires states to develop total maximum daily
                                     loads (TMDLs) for impaired waters that can not meet
                                     standards through traditional pollution controls and
                                     enforcement. The TMDL identifies the sources of
                                     pollutants and the maximum amount of pollutants that may
                                     be in a water body without exceeding the water quality
                                     standards.

                                     The pollution may come from point3, non-point, or natural
                                     sources. If the pollution comes from permitted sources, the
                                     state determines whether the appropriate permittees are in
                                     compliance with their permit discharge requirements. If so,
                                     the state develops a TMDL for the water body. EPA
                                     reviews and approves all state-developed TMDLs. EPA
                                     must develop TMDLs for impaired waters if a state fails to
                                     do so. Since 1986, EPA has been sued by various
                                     environmental interest groups or

3
   Point source represents a pollutant discharge into U.S. waters from a specific source such as a municipal wastewater
treatment plant or an industry of some type. Non-point sources represent pollutants that are discharged into waters from
various, unidentifiable sources. Chemical run-off from agricultural activities surrounding a waterbody is an example of
a non-point source discharge.




                                                      3                                      Report No. 1999-P00219
                                                Mississippi== s Water Quality Standards,
                                                               Monitoring, and Reporting


              organizations to develop TMDLs for impaired waters in 25
              states. Mississippi is one of these states.

              For each fiscal year (FY), EPA and the State negotiate
              commitments and priorities for the State=s water programs
              that will be funded, in part, by EPA grants authorized under
              section 106 of the Clean Water Act. These commitments
              and priorities are incorporated into the ASection 106 Work
              Plan.@ A portion of this work plan relates to the State=s
              work products and commitments for its water quality
              program during the coming fiscal year.

              Mississippi=s Commission on Environmental Quality and the
              Mississippi Department of Environmental Quality (MDEQ)
              are responsible for protecting and maintaining Mississippi=s
              water quality. The Commission is the governing authority
              for MDEQ.



SCOPE AND            We performed our audit in accordance with the
METHODOLOGY          Government Auditing Standards (1994 revision) issued by
                     the Comptroller General of the United States as they apply
                     to program audits. Our review included tests of the
                     program records and other auditing procedures we
                     considered necessary. We primarily conducted our
                     fieldwork from July 1998 through July 1999. This includes
                     both audit fieldwork and engineering assistance. We
                     performed our fieldwork at Region 4, Atlanta, Georgia, and
                     the MDEQ in Jackson, Mississippi.

                     To accomplish our objectives, we reviewed documents and
                     interviewed Regional and Mississippi officials. We also
                     reviewed correspondence, work plans, and agreements
                     between Region 4 and Mississippi applicable to water
                     quality standards and reports. We limited reviews of
                     internal controls to those controls specifically related to the
                     scope and objectives of this audit. Our review was
                     generally limited to water quality activities for FYs 1996
                     through 1998; however, older transactions were reviewed
                     as considered necessary to meet the audit objectives.

                     Due to the technical nature of some water quality issues, we
                     obtained assistance from the OIG Engineering and Science


                            4                                 Report No. 1999-P00219
                                        Mississippi== s Water Quality Standards,
                                                       Monitoring, and Reporting


              Branch. This assistance primarily included: (1) a
              comparison of Mississippi=s water quality criteria to EPA=s
              criteria; (2) analysis of monitoring data, and (3) comparison
              of water quality criteria to discharge permit pollutants and
              effluent limits.


PRIOR AUDIT   Neither the OIG nor the U. S. General Accounting Office
COVERAGE      has issued any recent reports directly related to Mississippi=s
              water quality standards, monitoring, and reporting. Since
              March 1998, the OIG has completed similar audits of water
              quality programs for the states of Colorado, Maryland,
              Missouri, New Jersey, Ohio, and Oregon.




                     5                                Report No. 1999-P00219
                                        Mississippi== s Water Quality Standards,
                                                       Monitoring, and Reporting




(This page intentionally left blank.)




                     6                                Report No. 1999-P00219
                                                       Mississippi== s Water Quality Standards,
                                                                      Monitoring, and Reporting


                        CHAPTER 2

        MISSISSIPPI==S STANDARDS WERE NOT ALWAYS
        AS PROTECTIVE OF ITS WATERS AS SHOULD BE


                     In February 1994, Mississippi adopted water quality
                     standards that were less protective of State waters than
                     EPA requirements. Regional concerns with the standards
                     were not corrected for almost two years due to extended
                     delays in Region 4's process for reviewing and approving
                     such standards. Some water quality criteria still remain
                     inconsistent with EPA guidance. Water quality criteria for
                     one major river remains less protective of the designated
                     surface water than that required by EPA criteria. This
                     criteria was initially disapproved by EPA in 1990.
                     However, the State maintained this less protective criteria in
                     the new standards adopted in February 1994. Also, the
                     human health criteria for pentachlorophenol (PCP) was not
                     changed in the 1994 standards to the more stringent
                     parameters for this toxin included in EPA=s 1992 National
                     Toxics Rule (NTR). In addition, the State has been unable
                     to fully develop implementation procedures for the State
                     antidegradation policy that would ensure that the quality of
                     the State=s surface waters is maintained. Finally, the State
                     did not perform the required triennial review in 1998 to
                     update the State=s water quality standards. The State
                     indicated that resource constraints and other priorities have
                     hampered their ability to develop and properly support the
                     State=s standards and policies.



EXTENDED REGIONAL    Region 4 took almost five years to review and approve the
REVIEW ALLOWED       State=s water quality standards. State standards, initially
INADEQUATE           adopted by the State on February 24, 1994, were not
STANDARDS TO         approved by Region 4 until December 28, 1998.
REMAIN               Inconsistencies between the standards and EPA guidance
UNCORRECTED          remained unresolved for almost two years during this
                     extended review process. According to EPA
                     correspondence with the State, dated December 22, 1994,
                     the Region=s primary concerns related to toxic criteria,
                     biocriteria, designation of ephemeral streams, and dissolved
                     oxygen criteria for the Escatawpa River. Most of these
                                   7                                 Report No. 1999-P00219
                                               Mississippi== s Water Quality Standards,
                                                              Monitoring, and Reporting


                     oxygen criteria for the Escatawpa River. Most of these
                     problems were resolved when Mississippi adopted revised
                     standards in November 1995.

                     Region 4 indicated that the review process was delayed due
                     to a requirement under the Endangered Species Act for
                     EPA consultation with the Fish and Wildlife Service (FWS)
                     on proposed state water quality standards. A lawsuit had
                     been filed regarding FWS consultation on standards
                     submitted by Alabama and problems had been encountered
                     in the Region=s subsequent FWS consultation on these
                     standards. During the Alabama consultation, Region 4
                     received Mississippi=s February 1994 standards and
                     encountered similar problems when they initiated informal
                     consultations with FWS. The Region decided not to
                     formally submit Mississippi=s standards to FWS until the
                     Alabama consultation was resolved. However, Regional
                     records indicated that the lawsuit and related Alabama
                     consultation only delayed Region 4's formal submission of
                     Mississippi=s standards to FWS by about 10 months. After
                     submission, the Region did not expeditiously respond to
                     FWS concerns and this delayed standards approval another
                     four years.




CERTAIN WATER        Mississippi=s dissolved oxygen criteria for the Escatawpa
QUALITY CRITERIA     River and human health criteria for PCP are inconsistent
REMAIN LESS          with EPA criteria. The State claimed that the EPA
STRINGENT THAN EPA   dissolved oxygen criteria for certain segments of the
REQUIREMENTS         Escatawpa River was unattainable and, therefore,
                     established a less stringent standard. The State=s dissolved
                     oxygen criteria of 3.0 milligrams per liter (mg/l) for the
                     Escatawpa River has been less stringent that EPA
                     requirements of 5.0 mg/l for over 20 years. Mississippi
                     initially adopted a site-specific criteria of 3.0 mg/l for the
                     Escatawpa in 1977. EPA approved this criteria based on an
                     analysis provided by the State which Region 4 believed met
                     the regulatory requirements in effect at that time. However,
                     in 1990 Region 4 disapproved the State=s site specific
                     criteria based on a 1983 regulation change that required that
                     UAAs be updated. Region 4 did not believe that the State
                     had properly justified the lower dissolved oxygen criteria.
                     As a result, Region 4 disapproved the less stringent criteria


                            8                                Report No. 1999-P00219
                           Mississippi== s Water Quality Standards,
                                          Monitoring, and Reporting


citing the need for the State to elevate the criteria to 5.0
mg/l or perform an appropriate UAA to justify the lower
criteria as required in 40 CFR 131.10(j). The State has not
performed this UAA. The State has agreed to complete a
UAA in numerous prior years= Section 106 Work Plans, but
the UAA has not been achieved. The FY 1999 work plan
targets completion of the UAA by September 1999.

State officials indicated that they did not have the resources
or the expertise to perform the required UAA. State
personnel stated that they had requested assistance from the
Region in performing the required UAA and had received
some assistance over time. In contrast, Region 4 indicated
that it had provided support to the State in obtaining
additional water quality monitoring staff, monitoring data,
and modeling development. The assistance provided by
Region 4 enabled the State to obtain the basic resources or
information needed to initiate a UAA. However, the State
was referring to assistance requested from the Region in
actually performing the UAA. Region 4 subsequently
informed us in July 1999 that Regional personnel had
initiated field studies necessary for completing a UAA in the
Summer of 1998 and expected the studies to be completed
before the end of the Summer of 1999. The Region also
sent a letter to the State indicating that the dissolved oxygen
criteria had to be resolved by April 1, 2000, or EPA would
promulgate criteria that met EPA requirements.

Mississippi did not update its 1994 water quality standards
to reflect more stringent human health criteria for PCP
included in EPA=s 1992 National Toxic=s Rule. The State
has adopted the federal criteria guidance for aquatic life. In
discussions with the State and Region 4, it was determined
that, in almost all cases, aquatic life criteria requires more
stringent permit limitations than the federal human health
criteria. Therefore, the adopted aquatic life criteria are
generally more protective of both aquatic life and drinking
water uses. Because of the low probability of
environmental impact, the Region decided to wait until the
next triennial standards update to request that Mississippi
change the human health criteria for PCP, rather than seek
promulgation of acceptable criteria by the EPA
Administrator. However, the State did not conduct the
required triennial review of its standards and related criteria


       9                                 Report No. 1999-P00219
                                               Mississippi== s Water Quality Standards,
                                                              Monitoring, and Reporting


                      during 1998.


MISSISSIPPI DID NOT   The Clean Water Act requires states to review their water
PERFORM TRIENNIAL     quality standards at least once every three years and (1)
REVIEW TO UPDATE      address emerging issues, (2) ensure that water body uses
STANDARDS             are consistent with the Clean Water Act, and (3) develop
                      criteria based on best available science. Mississippi=s last
                      triennial review and adoption of water quality standards
                      occurred in 1995. Therefore, the next review was due in
                      1998. The State did not perform this review. State officials
                      indicated that a triennial review of State standards was not
                      conducted because most of its resources were dedicated to
                      completing the 1998 305(b) and 303(d) reports and
                      resolving the TMDL lawsuit. However, Region 4 disagreed
                      that this was the primary reason that a triennial review was
                      not performed in 1998. Region 4 indicated that the State
                      was confused as to when the review was required.
                      According to Region 4, the State thought the review was
                      due three years after standards were approved rather than
                      three years after State adoption of standards. Region 4
                      indicated that it had recently informed the State that the
                      triennial review due in 1998 should be conducted by the end
                      of 1999. In response to the draft report, Region 4 stated
                      that the State had subsequently committed to performing a
                      triennial review in FY 2000.


MISSISSIPPI HAS NOT   Since at least November 1983, EPA regulations have
DEVELOPED             required that states develop and adopt an antidegradation
ACCEPTABLE            policy and identify methods for implementing such policy.
IMPLEMENTATION        As of April 1999, Mississippi had still not developed and
PROCEDURES FOR THE    submitted to Region 4 acceptable procedures for
STATE==S              implementing their antidegradation policy as required by the
ANTIDEGRADATION       Clean Water Act. These procedures are required to be a
POLICY                part of the State=s water quality standards. However,
                      Mississippi did not submit its first draft antidegradation
                      implementation procedures to Region 4 until November
                      1997. The State indicated that they did not know how to
                      develop implementation procedures and had been waiting
                      on guidance from Region 4. Without adequate
                      implementation procedures, the effectiveness of a state=s
                      antidegradation policy in protecting high quality waters is
                      questionable.


                            10                               Report No. 1999-P00219
                           Mississippi== s Water Quality Standards,
                                          Monitoring, and Reporting


Region 4 did not approve the November 1997 draft
procedures. In January 1998, the Region informed the
State that it did not consider the procedures to be adequate
to ensure protection of all of the State=s high quality waters.
 Requirements in 40 CFR 131.12(a) state that AEach State
must develop, adopt, and retain a state wide antidegradation
policy and develop a method for implementing such policy.@
 These requirements further specify five components to be
included in the policy=s implementation procedures. Region
4 expressed concern with 4 of the 5 components in
Mississippi=s draft antidegradation implementation
procedures as follows:

$       Applicability of Antidegradation Policy Review
        Procedure;

$       Alternatives Analysis;

$       Socio-Economics versus Water Quality Issues; and

$       Final Action

In the applicability section, Region 4 was concerned that
Tier I streams were not identified and protected. Tier I
streams are highest quality waters that substantially exceed
minimum required standards. Even where greater pollutant
discharges occur, these waters would still meet minimum
standards. According to 40 CFR 131.12, State
antidegradation policies must maintain the quality of those
waters that exceed the standards except under special
circumstances. Region 4, under the alternative analysis
section, questioned the final decision policy for discharges
where no feasible alternatives exist. EPA also questioned,
under the socio-economic section, how the final
determination to allow a discharge would be made. And
finally, under the final action section, the policy is not clear
on who specifically will have the authority to make
decisions based on the proposed policy.

No further action has been taken nor have revisions been
made by the State because the State has devoted most of its
resources to preparing the 1998 303(d) list. In addition,
Region 4 has chosen not to initiate any action to promulgate
an antidegradation policy that includes appropriate


      11                                 Report No. 1999-P00219
                                             Mississippi== s Water Quality Standards,
                                                            Monitoring, and Reporting


                   implementation procedures for the State. As a result, the
                   existing uses for the State=s Tier I waters and the level of
                   water quality necessary to protect those uses may not be
                   maintained and protected.


RECOMMENDATIONS    We recommend the Regional Administrator:

                          2-1     Assist the State, where possible, in
                                  completing the UAA for the Escatawpa
                                  River. Require the State to submit a list of all
                                  activities that need to be conducted to
                                  complete a UAA for this stream segment.
                                  Provide close oversight to ensure that the
                                  State properly addresses the disapproved
                                  dissolved oxygen criteria by the current
                                  September 1999 deadline.

                          2-2     Request the State to perform the required
                                  triennial review of its standards and update
                                  human health criteria for PCP to reflect
                                  current requirements in EPA guidance.

                          2-3     Assist Mississippi in adopting appropriate
                                  implementation procedures for the State=s
                                  antidegradation policy that supports the intent
                                  of the Clean Water Act.

                          2-4     Request that Mississippi identify and protect
                                  their Tier I high quality waters in any revised
                                  antidegradation implementation procedures.


AGENCY AND STATE   Region 4 generally concurred with the findings and
COMMENTS AND OIG   recommendations presented in Chapter 2. Mississippi
EVALUATION         provided no formal response but the State did provide
                   editorial comments. The Region also provided comments
                   related to certain statements in Chapter 2. Changes were
                   made to the final report as deemed appropriate. Our
                   evaluation of these comments have been incorporated into
                   the Region=s response in Appendix I.

                   Region 4 included completed and planned actions with
                   completion milestones for each recommendation. The


                         12                                Report No. 1999-P00219
                         Mississippi== s Water Quality Standards,
                                        Monitoring, and Reporting


Region indicated that the current Section 106 Work Plan
milestone (September 1999) for completion of the
Escatawpa UAA was not going to be met. They included a
revised milestone of April 1, 2000. The Region also
received a commitment from the State to complete a triennial
review in FY 2000. The triennial review will include a
revised PCP criterion. The Region further stated that
Mississippi is actively reviewing its antidegradation
implementation procedures and the Region expects the
procedures to be finalized by December 1999. Finally,
Region 4 indicated that Mississippi had completed a long
range monitoring strategy which was documented in the
1998 final 305(b) report submitted in August 1999.

We concluded that the Region=s response to the
recommendations was adequate for resolution of all
recommendations presented in Chapter 2 in accordance with
EPA Order 2750.




      13                               Report No. 1999-P00219
                                        Mississippi== s Water Quality Standards,
                                                       Monitoring, and Reporting




(This page intentionally left blank.)




                    14                                Report No. 1999-P00219
                                                                                 Mississippi== s Water Quality Standards,
                                                                                                Monitoring, and Reporting


                                                CHAPTER 3

                 MISSISSIPPI==S MONITORING PROGRAM HAS
              PROGRESSED SIGNIFICANTLY BUT IMPROVEMENTS
                          WERE STILL POSSIBLE


                                            Mississippi=s water quality monitoring program has made
                                            tremendous progress in the last two years. Prior to 1997,
                                            Mississippi=s monitoring program was very limited despite
                                            the fact that a 1997 State study4 showed only about 15
                                            percent of the State=s river miles fully supported the
                                            fishable/swimmable goals of the Clean Water Act. In 1997,
                                            MDEQ obtained additional resources from the State
                                            legislature which it used to improve water monitoring
                                            activities. However, as of August 1998, the State=s
                                            monitoring could still benefit from increased monitoring,
                                            trend analysis on lake waters, and the use of more advanced
                                            monitoring techniques that would provide a better basis for
                                            determining the quality of the State=s waters and the
                                            effectiveness of its water management programs.


MISSISSIPPI==S                              MDEQ=s February 1997 Comparative Environmental Risks
MONITORING                                  In Mississippi concluded that Mississippi=s water quality
PROGRAM IS                                  had greatly improved but it must be improved even more.
EVOLVING                                    According to the State=s 1996 305(b) report, MDEQ had
                                            only assessed 47 percent of the State=s rivers and streams.
                                            Of the 47 percent of rivers and streams assessed, 93 percent
                                            were shown in the 1996 305(b) report as evaluated based
                                            on presumed site conditions or old test data and only seven
                                            percent had been monitored. Overall, the State had
                                            accumulated monitoring data on only three percent of all
                                            waters within the State and a significant portion of this data
                                            had been obtained from sources external to MDEQ, such as
                                            the Corps of Engineers. This low level of monitoring
                                            existed despite the fact that MDEQ=s 1997 risk analysis
                                            indicated that fewer than 10 percent of the State=s river
                                            miles met the fishable goal of the Clean Water Act and
                                            fewer than 65 percent met the swimmable goal.


4
    Comparative Environmental Risks In Mississippi, published by MDEQ in February 1997.


                                                            15                                 Report No. 1999-P00219
                                                                  Mississippi== s Water Quality Standards,
                                                                                 Monitoring, and Reporting


                                 MDEQ officials stated that prior to 1997, the State=s water
                                 quality monitoring program needed significant
                                 improvement. The program had only three to five full-time
                                 employees to monitor all of the State=s waters. In 1996, the
                                 MDEQ, with EPA assistance, was able to convince the
                                 State legislature to appropriate additional funding for water
                                 quality monitoring. In 1997, MDEQ hired a monitoring
                                 coordinator and increased monitoring staff from a maximum
                                 of five to a maximum of nine employees. Overall, MDEQ
                                 received funds for 29 new positions to address both
                                 permitting and monitoring requirements. According to
                                 State comments, MDEQ received additional funds in 1998
                                 to further expand its monitoring, TMDL, and basin
                                 management staff by an additional 14 full-time positions.
                                 As a result, the State greatly expanded its ambient
                                 monitoring program and restructured its monitoring
                                 program using a rotating basin/watershed approach that will
                                 provide monitoring coverage of all watersheds over a five-
                                 year cycle. The State also planned to increase its
                                 monitoring stations from 25 bimonthly chemical sampling
                                 sites to 100 monthly chemical sampling locations within the
                                 State=s ten river basins. As of September 1998, the State
                                 reported it had established 143 monitoring sites including
                                 chemical, biological, and fish tissue sites. The State had
                                 further plans to include from 80 to 100 monitoring stations
                                 in each river basin group on an annual rotating basis.


ANALYSIS OF THE
STATE==S DATA ON
LAKE WATERS COULD
BE USEFUL




The State has obtained           Prior to 1998, Mississippi=s monitoring program included
significant monitoring data on   advanced monitoring techniques, such as biological
its lakes from external          assessments, on a very limited basis. However, most of the
sources such as the Corps of     State=s monitoring had involved physical data and chemical-
Engineers, the U.S.              specific water quality testing. Assessments of biological
Geological Survey, and the       indicators for the State=s waters had been limited although
Tennessee Valley Authority.      such data is needed to fully determine the ecological health
These sources periodically       of the water. Skewed emphasis on chemical testing could
provide the State with data      result in the State not identifying all impaired waters.

                                              16                                Report No. 1999-P00219
                                                                   Mississippi== s Water Quality Standards,
                                                                                  Monitoring, and Reporting


from fish tissue analysis
which is a primary indicator      The effectiveness of the State=s water quality monitoring
of lake water quality. These      would improve with a more well rounded monitoring design
agencies also provide the         to include increased biological monitoring, habitat studies,
State with nutrient, as well as   and macro invertebrate bioassessments. According to the
physical and chemical             State=s 1996 305(b) report, such monitoring techniques are
analyses of lake waters. The      primary indicators of the ecological condition of a
State indicated that lakes had    watershed. The report further states that robust aquatic
also been added to its            communities are a sign that the water body and related
ambient monitoring program.       watershed are healthy and can support a wide variety of
 However, the State did not       aquatic life. The State=s limited resources and the cost of
have a process for analyzing      these monitoring techniques require that advanced
this data to develop trends       monitoring be phased in as resources become available. A
about the condition of lake       comprehensive monitoring plan will be needed to ensure
waters. The State indicated       that such monitoring is used for maximum effectiveness in
that such trend analyses were     assessing the quality of the State=s waters.
optional in EPA guidance
and, in the past the, available
State resources were devoted
to performing the basic
monitoring requirements.
Without this type of analysis,
the State may not be able to
determine if lake water
quality is improving or
degrading.MISSISSIPPI
COULD UTILIZE MORE
ADVANCED
MONITORING
TECHNIQUES



                                  Although Mississippi=s water quality monitoring program
                                  has seen tremendous improvement since 1997 and generally
                                  met most statutory requirements, the effectiveness of the
                                  program could be improved by increased monitoring, trend
                                  analysis on monitoring data obtained, and use of advance
                                  monitoring techniques. Such improvements would provide
                                  a more meaningful assessment of the State=s water quality.
                                  Mississippi officials indicated that funding constraints
                                  limited their ability to expand their monitoring program, but
                                  that Mississippi had implemented significant improvements
                                  in the program since 1997.

                                                17                               Report No. 1999-P00219
                                                       Mississippi== s Water Quality Standards,
                                                                      Monitoring, and Reporting




RECOMMENDATIONS        We recommend the Regional Administrator:

                             3-1.    Provide technical assistance to help
                                     Mississippi formulate a long range plan to
                                     expand its monitoring program to include
                                     advanced testing techniques.

                             3-2.    Encourage the State to establish a process
                                     for developing trends about the condition of
                                     its lakes.



    AGENCY AND STATE         Region 4's response and the State=s editorial comments
    COMMENTS AND OIG         offered no general disagreement with the findings and
    EVALUATION               recommendations presented in this Chapter. However, the
                             Region and State indicated that actions had already been
                             completed in 1998 and 1999 that essentially resolved the
                             findings and recommendations. Region 4's response also
                             expressed concerns related to specific statements presented
                             in Chapter 3. Changes were made as deemed appropriate.
                             A summary of responses or comments by Region 4 and the
                             State on the findings and recommendations are presented
                             below. Our evaluation of Region 4's concerns with specific
                             statements in Chapter 3 have been incorporated into the
                             Region=s response included in Appendix I.

                             Region 4 agreed that in years preceding 1998, Mississippi=s
                             monitoring program did not sufficiently incorporate
                             advanced monitoring techniques. However, both the
                             Regional and State comments indicated that the monitoring
                             program made great strides in this area during FYs 1998
                             and 1999 and the program currently met or exceeded EPA
                             guidance. The Region documented that it had provided the
                             State with additional grant funds in 1998 and 1999 to assist
                             the State in improving its water quality monitoring. Region
                             4 further indicated that the State included a long-term
                             monitoring strategy in its 1998 305(b) report which was
                             received by the Region in final form in August 1999.

                             State comments acknowledged that trend analyses on lake
                             water monitoring data were not being done but both the

                                    18                               Report No. 1999-P00219
                         Mississippi== s Water Quality Standards,
                                        Monitoring, and Reporting


State and Regional comments indicated that such analyses
were optional in EPA guidance. Region 4 responded that it
would encourage the State to include lake trend analyses as
part of the State=s rotating basin approach in assessing
water quality conditions.

At the time of our review, the 1996 305(b) report and the
1997 Comparative Environmental Risk study contained the
only validated data available that documented the State=s
monitoring program. Increases in State monitoring
activities and resources after 1997 were based primarily on
statements by MDEQ staff. The 1998 305(b) report had
not been completed and validated at the time of our audit
fieldwork.

Region 4's response to the draft report included completed
actions that adequately addressed the recommendations
presented in Chapter 3. Therefore, we consider the
findings and recommendations to be resolved in accordance
with EPA Order 2750.




      19                               Report No. 1999-P00219
                                        Mississippi== s Water Quality Standards,
                                                       Monitoring, and Reporting




(This page intentionally left blank.)




                    20                                Report No. 1999-P00219
                                                                                     Mississippi== s Water Quality Standards,
                                                                                                    Monitoring, and Reporting


                                                 CHAPTER 4

                  MISSISSIPPI NEEDS TO ADHERE TO REQUIRED
                  TIME FRAMES FOR WATER QUALITY REPORTS


                                             Mississippi=s water quality reports were generally complete
                                             and accurate. However, the State has been consistently late
                                             in submitting water quality reports as required under the
                                             Clean Water Act. Significantly late reports decrease the
                                             usefulness and effectiveness of these reports to EPA and the
                                             State as a program management tool. Mississippi did not
                                             complete and submit the final 1998 305(b)5 water quality
                                             assessment report to Region 4 until August 1999. The
                                             1998 303(d) impaired waters list, that was due April 1,
                                             1998, was not submitted until July 1999. The Region has
                                             still not approved the list. Reports due in 1994 and 1996
                                             were submitted from two months to two years late. The
                                             State assigned the reports low priority and concentrated its
                                             limited resources on those problems the State considered
                                             more important. For the 1998 reports, the State indicated
                                             that the on-going lawsuit concerning the State=s designated
                                             impaired waters and the completion of TMDL
                                             determinations for these water bodies had delayed
                                             completion of the 305(b) and 303(d) reports.


BACKGROUND                                   Section 305(b) of the Clean Water Act requires each State
                                             to prepare and submit biennially to EPA a water quality
                                             assessment report, commonly referred to as the A305(b)
                                             report.@ These reports are to include: (1) a description of
                                             the quality of all navigable waters within the State; (2) an
                                             analysis of the extent all navigable waters within the State
                                             provide protection and propagation of balanced populations
                                             of shellfish, fish, and wildlife, and allow recreational
                                             activities in and on the water; and (3) an analysis of the
                                             extent to which elimination of pollutant discharges and
                                             improved water quality has been or will be achieved under


5
  Region 4 indicated that an electronic version of the 1998 305(b) report was received in February 1999. However,
Region 4 did not review and approve this version as the final report. The Region waited until the August 1999 formal
report was received. State comments indicated final 305(b) report was not submitted until August 1999.


                                                              21                                     Report No. 1999-P00219
                                                       Mississippi== s Water Quality Standards,
                                                                      Monitoring, and Reporting


                       the Clean Water Act requirements. The water quality
                       assessment report serves as the primary assessment of state
                       water quality and provides the basis for water quality
                       management planning. Clean Water Act, section 303(d),
                       requires states to identify all impaired water bodies where
                       existing pollution control requirements are not stringent
                       enough to achieve the water quality standards. This section
                       further requires that states establish a priority ranking for
                       impaired waters and establish TMDLs for each water body
                       listed. Pursuant to 40 CFR 130.7(d), each State shall
                       submit to EPA, beginning in 1992, an impaired waters list
                       (commonly referred to as the 303(d) list) on April 1 of
                       every even-numbered year.


MISSISSIPPI            Mississippi has consistently submitted untimely 305(b)
CONSISTENTLY LATE IN   reports and 303(d) lists to EPA. The 305(b) report due
COMPLETING WATER       April 1, 1994 was submitted almost a year late. The 1994
QUALITY REPORTS        303(d) list was almost two years late. In fact, the 1994
                       303(d) list was so late it was updated and approved by
                       Region 4 as the 1996 303(d) list. As a result, the State
                       really did not have a 1994 303(d) list. The State=s 1996
                       305(b) report was two months late. The final 1998 305(b)
                       report, due April 1, 1998, had not been completed as of
                       August 1999. The Region had received draft 1998 303(d)
                       and 305(b) reports in December 1998 and February 1999,
                       respectively. However, the Region had serious concerns
                       with the 303(d) list. Because of the need for consistent
                       information between reports, these 303(d) concerns also
                       impacted completion of the 1998 305(b) report. Untimely
                       completion and submission of water quality reports affects
                       the usefulness of the water quality data provided and the
                       effectiveness of the reports as basis for water quality
                       management planning. In addition, late completion of water
                       quality reports, impact TMDL development and jeopardizes
                       EPA section 106 funding for State water quality
                       management programs. This funding is crucial to
                       Mississippi because the State=s program already suffers
                       from a lack of staff and financial resources.

                       According to State officials, the 1998 305(b) report and
                       303(d) list have not been completed due to an ongoing
                       lawsuit related to TMDL determinations for impaired
                       waters included on the State=s 1996 303(d) list. MDEQ

                                    22                               Report No. 1999-P00219
                                                   Mississippi== s Water Quality Standards,
                                                                  Monitoring, and Reporting


                  indicated that many water bodies were placed on the initial
                  303(d) list based only on a potential for impairment due to
                  agricultural activities around these waters. The State had
                  not verified the impairments or performed the studies
                  necessary to delist the waters. State officials indicated it
                  would be resource intensive and take years to perform the
                  required assessments. However, the State wants to delist
                  all waters based on Apotential@ impairments. State officials
                  indicated that the large number of potentially impaired
                  waters on the list created an adverse economic impact on
                  the State because of problems in permitting discharges into
                  impaired waters. Region 4 has indicated that any such
                  delisting without proper justification would be
                  inappropriate. EPA would disapprove the list and
                  promulgate an appropriate list if this occurred. According
                  to Region 4, such delisting may inhibit settlement of the
                  current lawsuit against EPA and the State concerning the
                  State=s delay in preparing TMDLs for impaired waters and
                  EPA=s non-enforcement of statutory requirements for
                  TMDLs as relates to the State=s impaired waters.

                  Problems with the State=s 303(d) list and related TMDLs
                  need to be resolved as expeditiously as possible. State
                  officials indicated that they had to shift resources devoted to
                  water quality standards to assist in 303(d) and 305(b)
                  reports preparation. Therefore, these problems are
                  consuming a significant amount of the State=s resources
                  and, according to State officials, have adversely impacted
                  the State=s ability to update State water quality standards
                  and produce acceptable antidegradation implementation
                  procedures in a timely manner.

                  In July 1999, Region 4 informed us that a final 303(d) list
                  had been received from Mississippi. At that time, the
                  Region still had concerns with the list but was proceeding
                  with the review and approval process. Documentation
                  obtained from the Region indicated that Regional personnel
                  had put forth a tremendous effort in FY 1999 to assist the
                  State in completing the 1998 303(d) list.


RECOMMENDATIONS   We recommend the Regional Administrator:

                  4-1.   Assist Mississippi in developing processes to ensure
                         proper scheduling and timely preparation of water
                              23                              Report No. 1999-P00219
                                                    Mississippi== s Water Quality Standards,
                                                                   Monitoring, and Reporting


                          proper scheduling and timely preparation of water
                          quality assessment reports so that future reports will
                          be completed and submitted to EPA on the required
                          dates.

                   4-2.   Assist Mississippi in its efforts to correct or adjust
                          its 303(d) impaired water list.


AGENCY AND STATE   Region 4 generally agreed with the findings and
COMMENTS AND OIG   recommendations presented in Chapter 4. Region 4
EVALUATION         indicated that in March 1999, Region 4 initiated weekly
                   conference calls with MDEQ which allowed EPA to better
                   track and facilitate MDEQ=s progress in implementing EPA
                   priorities and submission of water quality reports. In
                   response to Recommendation 4-1, the Region further
                   agreed to establish with the State a set of interim dates for
                   completion of certain activities related to timely completion
                   of 305(b) and 303(d) reports. This set of interim milestone
                   dates are to be established by December 31, 1999. Since
                   Mississippi=s final 303(d) list had been recently received by
                   Region 4, Regional officials felt that the requirements of
                   Recommendation 4-2 had been satisfied.

                   Based on the Region=s response, we concluded that both
                   recommendations presented in this chapter could be
                   resolved in accordance with EPA Order 2750.

                   Region 4's response to the draft report also expressed
                   concerns with certain statements or facts presented in
                   Chapter 4. Mississippi also provided editorial comments on
                   Chapter 4. Changes were made in the final report as
                   deemed appropriate. Our evaluation of Region 4's concerns
                   are included in Appendix I.




                                24                                Report No. 1999-P00219
                                                       Mississippi== s Water Quality Standards,
                                                                      Monitoring, and Reporting


                        CHAPTER 5

       REGION 4 NEEDS TO STRENGTHEN OVERSIGHT AND
          TECHNICAL ASSISTANCE FOR MISSISSIPPI==S
                 WATER QUALITY STANDARDS


                     Region 4 had not always been timely in decisions on
                     Mississippi=s water quality standards and had not always
                     provided effective technical assistance to the State to
                     resolve the Region=s concerns related to certain water
                     quality criteria or the development of required water quality
                     reports. The Region needs to develop procedures that will
                     ensure a timely review and approval/disapproval of
                     standards adopted by the State. The Region also needs to
                     aggressively pursue resolution of concerns with standards
                     and related policies and to place more emphasis in Section
                     106 Work Plans, water management agreements, and
                     meetings with State officials on those problems that have
                     existed for years without resolution. Work plans have
                     documented for years State goals for promulgating
                     acceptable policies, standards, or criteria, where EPA had
                     expressed concerns, with little results. As a consequence,
                     Mississippi=s water quality management program has not
                     been as effective and protective of its waters as it could be.


CERTAIN WATER        Little progress had been made since 1990 to address EPA=s
QUALITY              longstanding disapproval of a site-specific dissolved oxygen
CRITERIA/POLICIES    criteria and the State=s need to perform a use attainability
HAVE REMAINED        analysis (UAA) for the Escatawpa River. In addition, the
UNAPPROVED BY EPA    State has not produced acceptable implementation
FOR 10 YEARS OR      procedures for the State=s antidegradation policy. The
MORE                 current requirement for this policy and related
                     implementation procedures was issued in 1983. Region 4
                     needs to take aggressive action to resolve these
                     longstanding deficiencies in the State=s water quality
                     standards.

                     Per 40 CFR 131.22(a), if the State does not adopt the
                     changes specified by the Regional Administrator within 90
                     days after notification of the Regional Administrator=s
                     disapproval, the Administrator shall promptly propose and

                                   25                                Report No. 1999-P00219
                          Mississippi== s Water Quality Standards,
                                         Monitoring, and Reporting


promulgate such standard. As of April 1999, EPA had not
promulgated a dissolved oxygen criteria for the Escatawpa
River even though it had initially disapproved the State=s
criteria in 1990, almost 10 years ago.

In 1990, the State adopted a dissolved oxygen criteria less
stringent than the criteria specified by EPA. The State
established a dissolved oxygen criteria of 3.0 mg/l for the
Escatawpa River. EPA requires a standard of 5.0 mg/l for
dissolved oxygen. The 3.0 mg/l criteria is not sufficient to
support the swimmable/fishable designated use required in
the Clean Water Act, section 101(a)(2). To justify a less
stringent criteria, a State must complete a UAA to support
its decision of a less stringent dissolved oxygen criteria.
However, the State has failed to submit a time frame for
completion of the UAA in accordance with requirements in
prior years Section 106 Work Plans. The State indicated
that it did not have the resources or expertise to perform a
UAA and had requested technical assistance from Region 4.
 Regional progress reviews on State work plans also
indicated that the Region planned during at least two
different FYs to assist the State in UAA data gathering.
However, this assistance was not initiated until the Summer
of 1999. Although Region 4 was aware of the State=s
limited resources, the Region did not take timely action to
assist the State with the UAA or to promulgate an
acceptable standard for the State. As a result, the waters of
the Escatawpa River may not be adequately protected and
maintained.

The State has had water quality standards in place for over
20 years and still has not adopted acceptable
implementation procedures for its antidegradation policy.
These procedures are required to be a part of the State=s
water quality standards. Mississippi submitted draft
implementation procedures in November 1997 but the
procedures were not considered acceptable by Region 4.
Consequently, Mississippi=s standards, for an extended
period, did not ensure that water quality was maintained or
that high quality waters were properly protected as intended
by the Clean Water Act. As a result, the Agency risked
being sued for not promulgating adequate water quality
standards for the State.


      26                                Report No. 1999-P00219
                                              Mississippi== s Water Quality Standards,
                                                             Monitoring, and Reporting




REGION 4 DID NOT     Water Quality standards, initially adopted by the State in
TIMELY REVIEW AND    February 1994, were not approved by Region 4 until
APPROVE/DISAPPROVE   December 1998, almost five years later. The standards still
STATE STANDARDS      do not include acceptable antidegradation implementation
                     procedures as required by the Clean Water Act. Per 40
                     CFR 131.21(a)(2), the Region has a 60-day time frame for
                     approval and a 90-day time frame for disapproval of the
                     State=s standards. A lawsuit involving another State=s
                     standards and untimely consultations with the FWS delayed
                     the Region=s review and approval of Mississippi=s standards.

                     Even though Mississippi implemented procedures to
                     develop comprehensive water quality standards that
                     protected its water quality, the criteria or water quality
                     standards initially promulgated in February 1994 were not
                     adequate and remained unapproved until December 28,
                     1998. Region 4's initial reviews expressed serious concerns
                     with Mississippi=s standards. However, the Region did not
                     officially disapprove the standards and EPA did not
                     promulgate acceptable standards in place of those adopted
                     by the State. Over a period of almost two years, the State
                     submitted proposed revisions to the Region that addressed
                     most of the Region=s concerns. However, because of
                     delayed submission of the standards to the FWS and delays
                     in obtaining clearances from the FWS, the Region did not
                     approve the standards and revisions until almost five years
                     after promulgation by the State.

                     Section 7 of the Endangered Species Act requires EPA to
                     consult with the FWS on water quality standards adopted
                     by each state and their potential impact on endangered
                     species. Because of a lawsuit and other problems related to
                     FWS consultation for another State=s water quality
                     standards, the Region delayed submission of Mississippi=s
                     water quality standards to the FWS. Region 4 waited until
                     the lawsuit and the related FWS consultation were settled
                     before submitting Mississippi=s standards and proposed
                     revisions to the FWS. This was almost 10 months after the
                     February 1994 standards were adopted by the State.
                     However, the basis of the lawsuit did not appear to be
                     directly related to Mississippi=s standards. We found no
                     plausible reason why the Region could not have initiated

                           27                               Report No. 1999-P00219
                                                         Mississippi== s Water Quality Standards,
                                                                        Monitoring, and Reporting

                     consultations with the FWS in early 1994. After submission
                     of the standards to the FWS in December 1994, the Region
                     took periods ranging from almost a year to over two and
                     half years to respond to FWS concerns. FWS finally
                     provided clearance for the State=s 1994 standards in
                     November 1998. The following are the dates of
                     correspondence between Region 4 and the FWS concerning
                     Mississippi=s standards.
                     pproximate
                     Description of Correspondence            Date       Elapsed Time

                     Region 4 Initial Submission to FWS       12/21/94

                     FWS Initial Response to Standards        02/07/95 1.5 months

                     Region 4 Response to FWS Concerns        09/15/97 2 years, 7 months

                     FWS Followup Response to Region 4        09/24/97 9 days

                     Region 4's Final Response to FWS         08/13/98 11 months

                     FWS Provides Clearance for Standards 11/19/98 3 months




RESOLUTION OF        Region 4's use of Section 106 work plans and related
CONCERNS WITH        progress reviews did not indicate that resolution of
WATER QUALITY        problems related to the Mississippi=s water quality program
STANDARDS/POLICIES   was a priority. Also, annual management agreements
HAS NOT BEEN A       between Region 4 and the Office of Water did not provide
REGIONAL PRIORITY    specific Regional priorities or goals for resolving current
                     problems with State water quality programs.

                     Section 106 Work Plans for FYs 1994 through 1998
                     included annual commitments by the State that were
                     continually not achieved as evidenced in the Region=s Mid-
                     Year and Year-End Work Plan Progress Reviews. These
                     commitments included: (1) a UAA to resolve the dissolved
                     oxygen criteria problem for the Escatawpa River and (2) the
                     promulgation of acceptable antidegradation implementation
                     procedures. Many of the work plans and progress reviews
                     were almost duplicates of the previous years= plans and
                     reviews.

                     The fiscal 1998-1999 water management agreement
                     between the Office of Water and Region 4 listed the priority
                     activities for the Region, and contained the measures the
                     Region uses to report on water program accomplishments
                     to the Office of Water. Resolution of existing problems

                             28                                          Report No. 1999-P00219
                                             Mississippi== s Water Quality Standards,
                                                            Monitoring, and Reporting

                   with state water quality standards and monitoring programs
                   was not listed as a Regional priority. No Regional actions
                   were detailed in the agreement, and the agreement did not
                   include measures to improve state water quality monitoring
                   and reporting programs.


RECOMMENDATIONS    We recommend the Regional Administrator:

                          5-1     Develop procedures that ensure a timely
                                  review and approval/disapproval of state
                                  water quality standards.

                          5-2     Place more priority on resolution of issues
                                  related to state water quality standards and
                                  related programs in agreements between the
                                  Region and the State, and the Region and
                                  the Office of Water. This should include
                                  specific actions the Region will take to
                                  resolve these problems.

                          5-3     Provide more aggressive oversight and
                                  technical assistance, where needed, to ensure
                                  that problems related to water quality
                                  standards and reporting are timely resolved.

                          5-4     Coordinate with EPA Headquarters to
                                  promulgate standards if states do not correct
                                  the deficiencies in standards within the 90
                                  days allowed by the Clean Water Act.


AGENCY AND STATE   Region 4 generally concurred with the findings and
COMMENTS AND OIG   recommendations. The Region indicated that it has
EVALUATION         identified two impediments to timely review of water
                   quality standards: (1) the required consultations with the
                   FWS and (2) the practice of working with states to correct
                   disapproved standards rather than EPA promulgating
                   proper standards. Region 4 stated that it is participating in
                   a national effort to obtain a Memorandum of Agreement
                   (MOA) with the FWS, as well as obtaining a Regional
                   MOA for water quality standards reviews. The Region
                   further stated that it would increase state oversight and
                   communications regarding proposed standards changes in
                   order to resolve problems before revised standards are

                         29                                Report No. 1999-P00219
                           Mississippi== s Water Quality Standards,
                                          Monitoring, and Reporting

submitted to the Agency.

The Region=s response stated that efforts have been
increased to resolve outstanding water quality issues and
that the Region is currently providing extensive monitoring
and water quality modeling to Mississippi to determine the
appropriate dissolved oxygen criteria for the Escatawpa
River. The Region further indicated that a pilot study had
been initiated with the State to enhance the State=s water
quality programs and the State Performance Partnership
Agreement process. In addition, the Region=s Section 106
Work Plan mid-year review process had been revised to
elevate significant issues to the Division Director level.
These actions are to ensure that significant issues related to
water quality standards and other programs are addressed in
a timely manner.

Region 4 indicated that the Office of Water has proposed
new regulations that would require EPA approval of a
state=s standards before the standards are effective.
Currently, standards are effective upon adoption by the
states. Under the proposed regulations, if EPA disapproves
a standard, the standard is voided. EPA could then
reinstate any previously approved standard by
administrative order or, where a previously approved
standard does not exist, EPA would have default criteria
that would be promptly promulgated to replace any
disapproved standards.

Region 4's response included completed and planned
actions in response to the recommendations presented in
Chapter 5. For planned actions, the Region included
milestone dates for completion of the actions. Therefore,
the Region=s response is considered adequate for resolution
of the recommendations presented in this Chapter in
accordance with EPA Order 2750.




      30                                 Report No. 1999-P00219
                            Mississippi== s Water Quality Standards,
                                           Monitoring, and Reporting

                                 APPENDIX I

AGENCY RESPONSE AND OIG EVALUATION




                  31                      Report No. 1999-P00219
                                                                      Mississippi== s Water Quality Standards,
                                                                                     Monitoring, and Reporting




 Regional Response to Mississippi==s Water Quality Standards, Monitoring, and Reporting
                            Draft Audit Report 1998-000368

OIG Overall Comments: The OIG=s evaluation of Region 4's response to draft report
recommendations are included at the end of each applicable report chapter. OIG=s responses to
Region 4 comments on the factual accuracy of specific statements in the draft report are
presented below in italics. The Region was given an opportunity to comment on the factual
accuracy of a pre-release version of the draft report. However, most of the comments below were
not communicated to the OIG with the Region=s informal comments on the pre-release report.

Executive Summary Recommendations:

1.     Assist Mississippi in completing the use attainability analysis (UAA) for the Escatawpa
       River as currently scheduled.

       The Region is continuing to provide its extensive monitoring and water quality modeling
       support to the State to determine the appropriate dissolved oxygen criteria for the
       Escatawpa River. The September 1999 deadline is a target date based on the Section 106
       Workplan. Due to technical and logistical constraints, this deadline will be missed.

              Milestone:

                      April 1, 2000 -- EPA Region 4 will ensure that the State must either a)
                      complete the UAA and associated standards revisions, if necessary or b)
                      present a milestone schedule of activities, by April 1, 2000.

       Request that Mississippi update its water quality standard for pentachlorophenol and adopt
       adequate antidegradation implementation procedures that fully support the intent of the
       Clean Water Act.

       The Region has received a commitment from the State to complete a Triennial Review in
       FY 2000. This Triennial review will include a revised PCP criterion. The Region has
       included the Mississippi Triennial review as one of its three FY 2000 formal water quality
       standards actions documented in the Region=s Office of Water Management Agreement.
       The State=s antidegradation implementation procedures are undergoing active review by the
       State and we expect these procedures to be finalized by December 1999.

              Milestone Dates:

              September 30, 2000 -- The PCP criterion will be revised as part of MS=s Water
              Quality Standards Triennial Review

              December 31, 1999 -- MS=s antidegradation implementation procedures will be

                                                   32                               Report No. 1999-P00219
                                                                     Mississippi== s Water Quality Standards,
                                                                                    Monitoring, and Reporting

            finalized.

2.   Assist Mississippi in developing a long-term monitoring strategy and management plan to
     incorporate more advanced monitoring techniques and ensure that the State
     comprehensively monitors the quality of its waters.

     As noted in comments below, the State has made significant progress in applying advanced
     monitoring techniques, including biological assessments, in evaluating water quality
     conditions. The State has developed and is implementing a long range monitoring strategy
     that describes in detail their approach in using physical, chemical and biological monitoring
     parameters in assessing the State=s water quality. This strategy is also described in the
     State=s 1998 305(b) Report under the Chapter entitled, ASurface Water Monitoring
     Program.@ With the assistance already provided to the State and the progress the State has
     already made in developing and implementing its long range monitoring strategy, it is
     suggested that this recommendation has already been accomplished.

            Milestone Date: Complete

3.   Request that Mississippi place more priority on timely completion of required water quality
     reports. Assist State in establishing a process for properly scheduling and preparing water
     quality reports so that future reports are submitted to EPA on the required dates.

     The Region continues to use the annual workplan negotiations and the midyear and end-of-
     year reviews as processes for identifying and addressing concerns regarding MDEQ=s water
     quality and assessment programs, and for fostering MDEQ progress towards meeting the
     national and regional requirements and goals. These reviews provide a forum for EPA to
     formally address Agency concerns regarding the State=s programs on a periodic basis and
     to establish milestones for resolving them.

     Regular communication is exercised between EPA=s state coordinators and program
     managers and MDEQ=s managers in an effort to identify and discuss EPA and State
     priorities and activities, and to monitor MDEQ=s progress in meeting national and regional
     requirements and goals. In March 1999, in an effort to better coordinate with and assist
     MDEQ and to ensure timely completion of required State reports and activities related to
     Sections 303(d) and 305(b), EPA, Region 4 initiated weekly conference calls between EPA
     and MDEQ. The weekly conferences have allowed EPA to better track and facilitate
     MDEQ=s progress in implementing EPA=s priorities.

            Milestone Dates:

                    October 31, 1999 -- Send letter from the RA to the Director of the MS
                    Department of Pollution Control requesting that the State give greater
                    priority to the timely completion of the 2000 305b Report and the 303d
                    List.



                                                  33                               Report No. 1999-P00219
                                                                       Mississippi== s Water Quality Standards,
                                                                                      Monitoring, and Reporting

                      December 31, 1999 B Establish with the State a set of interim dates by
                      which certain activities (integral to timely completion of the 305b Report
                      and the 303d List) will be accomplished. Monitor the State=s progress
                      towards meeting the interim milestone dates.

Chapter 1

Factual Inaccuracies:

1.     Page 3, paragraph 2: The CWA requires TMDLs for certain impaired waters, not for all
       impaired waters, as indicated in line 3.

OIG Comments: The final report was changed to reflect that TMDLs were only required for
certain impaired waters.

2.     Page 3, third paragraph: EPA has the authority to approve or disapprove State developed
       TMDLs, contrary to the statement on line 4.

OIG Comments: This Regional comment is incorrect. The statement on line 4, page 3, third
paragraph, explicitly states that EPA reviews and approves all state-developed TMDLs.

Chapter 2

Factual Inaccuracies:

1.     Page 5, second paragraph: The report mischaracterizes several items as Adeficiencies@ in
       lines 3 - 6. These items were first identified by the Region as areas which the State should
       review and revise, as necessary, in correspondence to the State in 1993. The State=s
       submittals in 1994 and 1996 addressed these areas, where necessary and to the greatest
       extent possible, and were approved by this Region. The situation revolving around the
       dissolved oxygen criteria for the Escatawpa River is addressed elsewhere in these
       comments.

OIG Comments: The word Adeficiencies@ was changed to Aconcerns.@ These concerns were
identified as part of the Region=s review of the February 1994 standards. We were not provided
any 1993 correspondence to the State regarding these concerns or any documentation that any of
these concerns were resolved with State adoption of standards in February 1994. Regional
documentation indicated that these concerns were still outstanding after February 1994. We
agree that revised standards, adopted by the State in November 1995, did address most of the
Region=s concerns. The final report has been changed to reflect this fact.

2.     Page 5, third paragraph: This paragraph is somewhat incorrect in the explanation of the
       delay due to consultation with the Fish and Wildlife Service (FWS). Region 4 was actively
       engaged in a formal consultation with FWS on the State of Alabama=s water quality
       standards at the time of the submission from Mississippi. When the Region initiated

                                                   34                                Report No. 1999-P00219
                                                                        Mississippi== s Water Quality Standards,
                                                                                       Monitoring, and Reporting

       informal consultation with the Mississippi FWS, many of the same issues that were being
       discussed during the Alabama water quality standards consultation were raised about MS=s
       standards. The Region decided to await the outcome of the Alabama consultation in order
       to a) conserve resources and b) use the results of the consultation to address the issues in
       Mississippi. At the conclusion of the Alabama consultation, the Region reinitiated


       discussions with the Mississippi FWS and resolved the outstanding issues.

OIG Comments: The subject paragraph is based on specific statements made by Regional staff
that the law suit over consultation with FWS on Alabama=s water quality standards caused the
delay in submission of Mississippi=s standards to the FWS. However, the final report was
changed to include the additional circumstances described above which delayed formal
submission of Mississippi=s standards to the FWS.

P      Page 6, second paragraph: It should be noted that the Region actually initiated field studies
       in the summer of 1998 on the Escatawpa River.

OIG Comments: The date that the Escatawpa field studies were initiated has been included in the
final report. However, we do not believe this omission represents a factual discrepancy.

P      Page 7, first paragraph: In order to accurately characterize the acceptability of the PCP
       criteria, we recommend the addition of the following language after "... there was little
       chance of environmental impact (for PCP).": Mississippi=s current freshwater aquatic life-
       based criterion at 7 pH (neutral conditions) is 2.1 ug/l, and the current salt water aquatic
       life-based criterion is 7.9 ug/l. EPA=s current human health-based criteria for the protection
       of cancer (at Mississippi=s state adopted and approved risk level of 10-5) is 2.8 ug/l.
       Therefore, the aquatic life-based criteria also protects for the human health-based criterion
       in all situations in freshwater and in saltwater where the ratio of the annual average
       concentration is greater than 3.8 to 1. There are very few coastal water bodies, if any
       where this ratio is less than 3.8 to 1. Therefore, the State=s aquatic life criterion should be
       protective in most (if not all) cases for human health endpoints, including cancer, as
       currently adopted.

OIG Comment: We revised the narrative related to the PCP issue in the final report to make it
more understandable for the casual or uninformed reader. Most of the technical details were
eliminated from the report. The language that Region 4 requests be inserted in the report is very
technical and would be difficult to understand by most readers of the final report. Therefore, the
report was not revised to include this information.

P      Page 8, second full paragraph: Region 4 had concerns about the State not identifying
       implementation methods for Tier I streams, not Tier II streams. Barring the other
       comments in the Regional response letter, the draft implementation policy adequately
       addresses Tier II.



                                                    35                                Report No. 1999-P00219
                                                                        Mississippi== s Water Quality Standards,
                                                                                       Monitoring, and Reporting

OIG Comments: The Region=s January 20, 1998 correspondence, related to Regional concerns
with the State=s draft antidegradation implementation procedures, included references to both
Tier I and Tier II waters. A Regional official told us during the audit that the reference to Tier I
was a typographical error. The Region=s concerns were with Tier II waters. However, based on
the Region=s official comments above, we have changed the applicable finding and related
recommendation to reflect that Region 4 had concerns regarding identification and protection of
Tier I waters in Mississippi=s draft antidegradation implementation procedures.

Recommendations:

2-1.   Assist the State, where possible, in completing the UAA for the Escatawpa River...by the
       current September 1999 deadline.

       The Region is continuing to provide extensive monitoring and water quality modeling
       support to the State to determine the appropriate dissolved oxygen criteria for the
       Escatawpa River. The September 1999 deadline is a target date based on the Section 106
       Workplan. Due to technical and logistical constraints, this deadline will be missed.

               Milestone Date:

                       April 1, 2000 B EPA Region 4 will ensure that the State must either a)
                       complete the UAA and associated standards revisions, if necessary or b)
                       present a milestone schedule of activities, by April 1, 2000.

2-2.   Request the State to perform the required triennial review of its standards and update
       human health criteria for PCP to reflect current requirements in EPA guidance.

       The Region met with the State on August 20, 1999 to discuss this action. The Region has
       received a commitment from the State to conduct a Triennial Review in FY 2000. This
       Triennial review will include a revised PCP criterion. The Region has included the
       Mississippi Triennial review as one of its three FY 2000 formal water quality standards
       actions documented in the Region=s Office of Water Management Agreement.

               Milestone Date: Complete

2-3.   Assist Mississippi in adopting appropriate implementation procedures for the State=s
       antidegradation policy that supports the intent of the Clean Water Act.

       This issue was also discussed at the August 20 meeting noted above. The State=s
       antidegradation implementation procedures are undergoing active review and we expect
       these procedures to be finalized by December 1999.

               Milestone Date:

                       December 31, 1999 B MS=s Antidegradation Implementation procedures

                                                    36                                Report No. 1999-P00219
                                                                        Mississippi== s Water Quality Standards,
                                                                                       Monitoring, and Reporting

                      will be final.
2-4.   Request that Mississippi identify and protect the second level of high quality waters in any
       revised antidegradation implementation procedures.

       This recommendation appears to be based on factual inaccuracies previously cited (see
       comments pertaining to page 8 of the report). This recommendation should be removed or
       revised. It is the intent of the Region to assure that any antidegradation implementation
       procedures protect all waters of the State.

Chapter 3

Factual Inaccuracies:

1.     Page 11, second paragraph: The third sentence is not correct and does not agree with the
       previous two sentences. The OIG should carefully check the figures as presented in the
       305(b) reports and discuss them with the State.

OIG Comments: We disagree with the Region=s statement that the third sentence in the second
paragraph, page 11, is not correct and does not agree with the previous two sentences. The
percentages shown in the third sentence and the preceding sentence were taken almost verbatim
from the State=s 1996 305(b) report. The percentages in the third sentence, refer to the percent of
assessed rivers and streams that were based on presumed site conditions versus those rivers and
streams actually monitored. The preceding sentence refers to the percent of total streams/rivers
in the State that had been assessed. We changed the third sentence to state: AOf the 46 percent of
rivers and streams assessed, 93 percent were evaluated based on presumed site conditions or old
test data and only 7 percent had been monitored.@

2.     Page 11, third paragraph: The first sentence is inappropriate for this report. The rest of the
       paragraph is inaccurate in terms of the level of staff support for monitoring both before and
       after the program improvements referenced. There is also confusion over the staff and
       resource increases for monitoring needs (circa 1996), as opposed to staff and resource
       increases for TMDLs (circa 1997/98). The monitoring program had more than two
       employees involved prior to 1997 and has many more than seven involved currently. The
       State should be consulted to determine the exact numbers of FTEs that are assigned to the
       monitoring program, including those in Field Services. The timing of the addition of new
       staff as well as the areas of responsibility of the staff should also be discussed with the
       State. The statement that 29 new staff were funded leaves the impression that they were all
       assigned to monitoring, which is not the case.

OIG Comments: The description of Apathetic@ for the State=s pre-1997 monitoring program was
made by a senior MDEQ official during the audit. However, we changed the final report to
reflect that the State=s monitoring program needed significant improvement prior to 1997. The
number of employees in the State=s monitoring program prior to 1997 was obtained from a senior
State official during the audit fieldwork. However, the State editorial comments on the draft
report indicated that three to five full-time employees were involved in monitoring. The final

                                                    37                                Report No. 1999-P00219
                                                                          Mississippi== s Water Quality Standards,
                                                                                         Monitoring, and Reporting

report was changed to show three to five monitoring employees prior to 1997. The State=s
editorial comments on the draft report indicated that seven to nine full-time employees were
assigned to monitoring activities in 1997. The final report was changed to reflect a maximum of
nine monitoring staff in 1997. The final report was changed to clearly reflect that the 29 new
positions were for both permitting and monitoring requirements.

3.     Page 12, Analysis of the State=s Data on Lake Waters Could Be Useful: Line 6 of the draft
       OIG report indicates the State does not have a process to assess the relevant condition of lake
       waters. This statement is wrong. The State has a process to assess the lake data provided by
       COE, USGS, and TVA to complete a use impairment assessments and make use support
       determinations. This paragraph should be changed to reflect that assessment of data on lake
       water quality conditions for the determination of use support is performed by the state.

OIG Comments: We agree that the State was assessing lake monitoring data for determining use
support. However, the draft report=s reference to Arelevant condition@ pertained to the relevant
condition of lake waters over time, i.e., are lake waters improving or degrading, which would require
trend analysis. Since the Region indicates that the term relevant condition only applies to
determinations of use support, we removed this term from the final report.

4.     Page 12, Mississippi Could Utilize More Advanced Monitoring Techniques: DEQ is making
       significant progress in applying advanced monitoring techniques in assessing the quality of
       evaluated waters. With EPA funding assistance (Section 104(b)(3) grants) and EPA technical
       assistance (both EPA and contractor field support), MDEQ in 1999 has allocated a substantial
       amount of resources to performing rapid biological assessments on evaluated waters in the
       State on an accelerated monitoring schedule. This EPA technical and funding assistance to
       MDEQ has led and continues to lead to additional improvements in the water quality
       monitoring program, with real benefits that will not be fully realized until completion of one or
       two cycles through the State=s rotating basin plan (i.e., 2003 or 2008, respectively). Additional
       Section 104(b)(3) grants are specifically targeted to support continued performance of rapid
       biological assessments to determine if evaluated waters are actually impaired.

       The State has also worked closely with the Region and EPA ORD in delineating ecoregions in
       the State and in identifying reference streams. They have worked cooperatively with Alabama
       in the joint ecoregion project. The State is one of the leaders among Region 4 states in
       conducting this work which is essential for establishing a strong foundation for developing and
       using bioassessment techniques. As new resources have become available they have continued
       to expand the use of bioassessments in the monitoring program and have included them as an
       integral part of their fixed ambient monitoring station network and rotating basin approach.
       The State is continuing the effort to improve and expand their biological monitoring program.
       For example, the state used bioassessments at over 80 sites during the 1998 sampling period to
       determine the ecological condition of watersheds.

OIG Comments: The Region cites progress made by Mississippi in 1998 and 1999 in integrating
advanced monitoring techniques into its monitoring program. The data cited by Region 4 was not
available at the time of our audit fieldwork. However, if the State has made such progress in these

                                                     38                                 Report No. 1999-P00219
                                                                         Mississippi== s Water Quality Standards,
                                                                                        Monitoring, and Reporting

techniques, the applicable finding can be resolved.

Recommendations:

3-1.   Provide technical assistance to help Mississippi formulate a long range plan to expand its
       monitoring program to include advanced testing techniques.

       As noted above, the State has made significant progress in applying advanced monitoring
       techniques, including biological assessments, in evaluating water quality conditions. The State
       has developed and is implementing a long range monitoring strategy that describes in detail
       their approach in using physical, chemical and biological monitoring parameters in assessing
       the State=s water quality. This strategy is also described in the State=s 1998 305(b) Report
       under the Chapter entitled, ASurface Water Monitoring Program@. With the assistance already
       provided to the State and the progress the State has already made in developing and
       implementing its long range monitoring strategy, it is suggested that this recommendation has
       been met.

               Milestone Date: Completed

3-2.   Encourage the State to establish a process for analyzing monitoring data for lake waters and
       developing trends about the condition of its lakes.

       As noted in a previous comment, the State has a process for obtaining and assessing lake data
       provided by other agencies. The State considers this data in making impairment assessments
       and use support determinations. It is, therefore, suggested that the first part of this
       recommendation be deleted.

       With regard to encouraging the State to develop trends about the condition of its lakes, it must
       first be understood that the Agency=s 305(b) guidance includes this activity as an optional
       activity and is not one that is required by regulation or guidance. The State does analyze lake
       data for the purpose of making impairment assessments and use support determinations, but
       does not use this data for establishing trends. The Region, however, will work with the State
       to encourage them to include lake trend analyses as part of the rotating basin approach in
       assessing water quality conditions in the State. This will be accomplished through the
       established procedures of workplan development and review and program overview. This
       issue will be a focused component of the workplan process.

       Milestone Dates:

               December 31, 1999 B RA will send letter to the State requesting the State to include
               trend analysis for their lakes as part of their rotating basin monitoring approach.




                                                      39                               Report No. 1999-P00219
                                                                           Mississippi== s Water Quality Standards,
                                                                                          Monitoring, and Reporting


Chapter 4

Factual Inaccuracies:

1.     Page 15, first paragraph: Region 4 did not have serious concerns over the draft 1998 305(b)
       report. The main concern was that the report was late.

OIG Comments: The final report was changed to eliminate any reference to Regional concerns with
the draft 1998 305(b) report other than those concerns related to the timeliness of the report.

2.     Page 15, Mississippi Needs to Adhere to Required Time Frames for Water Quality Reports

       The following statement is incorrect: AAs of April 1, 1999, Mississippi had not completed and
       submitted to EPA the final 305(b) water quality assessment report.@ (Page 15, 1st paragraph).
       Mississippi=s 1998 Section 305(b) Report was received electronically by EPA in February
       1999. (See comments below for an explanation of the late submittal). Although two months
       late, submittal of the electronic version of the report was provided to EPA/HQ in time for
       developing the National Water Quality Assessment Report and sufficient for the State to
       maintain Section 106 funding. The electronic report provided essential data that could be used
       by the Agency to review the surface water quality and assessment information. The hardcopy
       report was received in August 1999.

OIG Comments: Neither during the audit fieldwork nor in Regional comments on the pre-release
draft report was there a mention of a February 1999 electronic version of the 1998 305(b) report.
Although the Region indicates that this electronic version was used as input for the National Water
Quality Assessment Report, the Region did not review and approve this version as the official, final
1998 305(b) report. Therefore, the report did not meet the regulatory requirements for review and
approval. In addition, even if the February report was the final version, the report would be more
than two months late since the Clean Water Act, Section 305, specifies the report is due biennially on
April 1 or in this case April 1, 1998. The Region indicates in other comments that the official 305(b)
report was not received until August 1999. Also, State editorial comments to the draft report clearly
indicate that the State submitted the final 1998 305(b) report in August 1999.

3.     The comments in the report pertaining to late submittal of the State=s 1998 '303(d) list and
       '305(b) report do not reflect the special mitigating circumstances which prevailed in the
       context of EPA-Region 4's efforts to settle the TMDL litigation in progress at that time.
       During this time, MDEQ was involved in continuous discussion with EPA-Region 4 about the
       specific nature of the 1998 303(d) list in a sincere effort to provide a list that would accurately
       reflect the State=s known impairments, but would not weaken EPA=s position in the existing, or
       future potential, litigation. The delay of submittal was encouraged by EPA-Region 4, with full
       cooperation of MDEQ, in order to find a mutually satisfactory resolution of the issue. In
       addition, during this time MDEQ felt that they could not submit a 1998 305(b) report that
       might end up contradicting the version of the '303(d) list that would be finally agreed upon.
       The reasons for late submittal of both documents was fully understood by EPA-Region 4, and

                                                      40                                 Report No. 1999-P00219
                                                                          Mississippi== s Water Quality Standards,
                                                                                         Monitoring, and Reporting

       provided the necessary time to agree on a version of the 1998 '303(d) list that met
       EPA-Region 4's needs and facilitated settlement of the TMDL lawsuit.

OIG Comments: The final report was changed to more clearly reflect the mitigating circumstances
involved in the State=s completion of the 1998 303(d) list.

4.     Page 16, Paragraph 1: The 1994 303(d) list was NOT approved as the 1996 303(d) list and the
       State did NOT fail to prepare a 1996 303(d) list, contrary to the statements in lines 3 - 5.

       The 1994 draft 303(d) list was submitted to EPA on May 11, 1995. EPA provided significant
       written comments on the draft list to the State on June 20, 1995. On July 7, 1995, EPA sent
       correspondence to Mississippi and all the Region 4 States that indicated the States should
       already be compiling and analyzing data and information for the 1996 303(d) list. Some time
       after July 7, and before October 30, 1995, Region 4 staff visited the State to discuss the 303(d)
       list. On October 30, 1995, EPA sent correspondence to the State which stated that Mississippi
       had requested to consolidate its 1994 303(d) list with its 1996 303(d) list and to submit a
       consolidated 1994/1996 303(d) list to EPA for approval by April 1, 1996. The State had
       requested concurrence with this approach because the dedication of resources to submit a
       separate 1994 303(d) list would delay work on the 1996 305(b) report and the 1996 303(d)
       list. In the October 30 correspondence, EPA assented to the State=s decision to proceed in the
       manner requested, because that would serve the public interest and further the purposes of
       303(d). Additionally, in the October 30, letter, EPA committed to provide technical assistance
       to Mississippi in the form of an EPA environmental engineer who helped analyze data for use
       in compiling its consolidated 1994/1996 303(d) list.

       On February 6, 1996, the State submitted a draft, consolidated 1994/1996 303(d) list. EPA
       provided written comments on February 22, 1996. The State submitted a final consolidated
       1994/1996 303(d) list to EPA for approval on April 1, 1996. EPA approved Mississippi=s
       consolidated 1994/1996 303(d) list on May 3, 1996.

OIG Comments: The statement in the draft report that the State essentially did not complete a 1996
303(d) list came directly from Region 4 staff. However, based on the Region=s comments that the late
1994 list was updated, we changed the final report to reflect that the State essentially did not
complete a 1994 303(d) list. The Region can not have it both ways. Either the State did not produce
a 1994 303(d) list or a 1996 303(d) list. We do not believe a consolidated 1994/1996 303(d) list
approved by Region 4 in May 1996 meets the regulatory or statutory requirements for both a 1994
and 1996 303(d) list.

5.     Page 16, Paragraph 2: This narrative is outdated. The State made a determination that it
       would leave evaluated waters on the 1998 303(d) list in February 1999 and this is a moot
       issue.

OIG Comments: Our copies of Regional documentation concerning Mississippi=s 1998 303(d)list,
dated as late as June 1999, indicate that the list included delisting decisions for evaluated waters.
The Region submitted no documentation that supported its statement that the State made a decision

                                                     41                                 Report No. 1999-P00219
                                                                         Mississippi== s Water Quality Standards,
                                                                                        Monitoring, and Reporting

in February 1999 to leave evaluated waters on the 1998 303(d) list. Apparently, as late as June
1999, the State still wanted some evaluated waters delisted.

6.     Page 16, Paragraph 3: Problems with the State=s 303(d) list and related TMDLs are discussed
       in terms of consuming a significant amount of State resources and adversely impacting the
       State=s ability to update water quality standards and produce acceptable antidegradation
       implementation procedures. The linkage between these two activities is unclear. While senior
       management in the State may have management responsibilities over listing, TMDLs and
       standards activities, the broad statement linking listing and TMDL problems with performance
       in the standards program is inappropriate. DEQ employees staffing the 303d Listing and
       TMDL activities are not the same as those staffing the Water Quality Standards activities, and,
       therefore, these activities should not have interfered with each other. Additionally, the
       reference to TMDL related problems is unclear. EPA and the State have been working
       diligently to improve the State=s capability and capacity to develop TMDLs - the suggestion to
       expeditiously resolve TMDL related problems is, therefore, unclear.

OIG Comments: According to MDEQ officials, significant resources assigned to water quality
standards were being used to assist in preparing the 303(d) list and in activities related to resolving
the TMDL law suit. They also told us that this loss of resources from water quality standards
impacted their ability to update water quality standards and promulgate antidegradation
implementation procedures in a timely manner.

7.     Page 16, Paragraph 4: The narrative is outdated. Region 4 has clarified that conditional
       approval of Mississippi=s 1998 303(d) list is inappropriate. EPA is proceeding with full
       approval of Mississippi=s 1998 303(d) list.

OIG Comments: Region 4 staff told us, just prior to issuance of the July 1999 draft report, that the
Region was seeking EPA Headquarters consent for conditional approval of the State=s current 303(d)
list. There were problems with a least one waterbody on the list that had not been resolved. The final
report was changed to indicate that the Region is now proceeding with full approval of the State=s
1998 303(d) list.

Recommendations:

4-1.   Assist Mississippi in developing processes to ensure proper scheduling and timely preparation
       of water quality assessment reports so that future reports will be completed and submitted to
       EPA on the required dates.

       The Region continues to use the annual workplan negotiation and the midyear and end-of-year
       reviews as processes for identifying and addressing concerns regarding MDEQ=s water quality
       and assessment programs, and for fostering MDEQ progress towards meeting the national and
       regional requirements and goals. These reviews provide a forum for EPA to formally address
       Agency concerns regarding the State=s programs on a periodic basis and to establish milestones
       for resolving them.



                                                     42                                Report No. 1999-P00219
                                                                           Mississippi== s Water Quality Standards,
                                                                                          Monitoring, and Reporting

       Regular communication is exercised between EPA=s state coordinators and program managers
       and MDEQ=s managers in an effort to identify and discuss EPA and State priorities and
       activities, and to monitor MDEQ=s progress in meeting national and regional requirements and
       goals. In March 1999, in an effort to better coordinate with and assist MDEQ and to ensure
       timely completion of required State reports and activities related to Sections 303(d) and
       305(b), EPA, Region 4 initiated weekly conference calls between EPA and MDEQ. The
       weekly conferences have allowed EPA to better track and facilitate MDEQ=s progress in
       implementing EPA=s priorities. These conferences have been very effective in improving the
       State=s responsiveness to EPA=s priorities and goals and in improving the timeliness of State
       submittals.

       Milestone Dates:

               December 31, 1999 B Establish with the State a set of interim dates by which certain
               activities (integral to timely completion of the 305b Report and the 303d List) will be
               accomplished. Monitor the State=s progress towards meeting the interim milestone
               dates.

4-2.   Assist Mississippi in its efforts to correct or adjust its 303(d) impaired water list.

       No further action is required to assist the State in correcting or adjusting its303(d) list. Region
       4 is proceeding with completing the decision document for approval of Mississippi=s 1998
       303(d) list.

               Milestone Date: Completed

Chapter 5

Factual Inaccuracies:

1.     Page 19: The title of this chapter should reflect that it addresses the Water Quality Standards
       Program, not the Water Quality Program. The current title is too broad and implies
       weaknesses throughout the program when the text refers only to the Standards Program.

OIG Comments: The title to Chapter 5 was changed to reflect that the problems relate primarily to
the Water Quality Standards Program and not the Water Quality Program as a whole.

2.     Page 19, Paragraph 1: Region 4 has provided significant assistance to Mississippi in order to
       resolve the Region=s concerns related to the development of the required 1998 303(d) list.
       This is documented by written letter of comments to the draft list and numerous electronic mail
       messages concerning unresolved concerns/questions. The statement in lines 1-3 of the draft
       report is that the Region has not provided technical assistance. As occurred in 1995 - 1996,
       the State requested needed technical assistance in developing the consolidated 1994/1996
       303(d) list and EPA did provide technical assistance.



                                                      43                                 Report No. 1999-P00219
                                                                          Mississippi== s Water Quality Standards,
                                                                                         Monitoring, and Reporting

OIG Comments: We agree that the Region has provided technical assistance to the State as relates to
the preparation of 303(d) lists. Based on documentation we received in July 1999, the Region has
provided substantial assistance to the State in order to overcome obstacles to completion of the 1998
303(d) list. Therefore, we made changes to the first sentence in Chapter 5. We also included
additional narrative in Chapter 4 to recognize this recent effort by Regional staff.

Recommendations:

5-1.   Develop procedures that ensure a timely review and approval/disapproval of state water
       quality standards.

       The Region 4 water quality standards program is taking steps to ensure a timely review and
       approval/disapproval process is implemented. The Region has identified two principal
       impediments to a timely water quality standards review process: 1) the lack of a National
       Memorandum of Agreement (MOA) with the U.S. Fish and Wildlife Service regarding the
       EPA procedures to consult on under Section 7 of the Endangered Species Act; and 2) the
       practice of working with states to correct disapproved water quality standards, rather than
       undertaking a federal promulgation. These are discussed below.

       Consultation under Section 7 of the Endangered Species Act has created delays in state
       standards review in several regions. This consultation requirement and its time frames can
       conflict with the Clean Water Act state standards review time frames. The Region has taken
       the following steps to address these impediments. The Region is participating on the national
       workgroup to finalize a MOA with the Fish and Wildlife Service and concurrently the Region
       is pursuing a Regional MOA with the Service to address our water quality standards and other
       program review issues. In addition, we are providing the Service staff with background
       information and regarding specific standards issues and are preparing training sessions for their
       staff for FY 2000 in an effort to build a more collaborative working relationship.

       Regarding delays in resolving water quality standards disapprovals, such as the Escatawpa
       dissolved oxygen criteria, EPA will increase its state program oversight efforts by conducting
       more on-site visits and exchanging formal communication regarding proposed changes to state
       water quality standards. These activities will provide the Agency and the state programs an
       opportunity to effectively resolve water quality standards issues before they are formally
       submitted to the Agency for approval/disapproval.

               Milestone Dates:
                      October 31, 1999 - End of Year report outlining the progress of the State=s
                      water quality standards program will be transmitted to the State

                       April 30, 2000 B Have a Regional MOA established between EPA and the
                       FWS to streamline the consultation process for water quality standards.

                       June 30, 2000 - Regional Water Management Division Director will have an on
                       site discussion with Mississippi DEQ updating the status of the State=s water

                                                     44                                 Report No. 1999-P00219
                                                                         Mississippi== s Water Quality Standards,
                                                                                        Monitoring, and Reporting

                     quality standards program.
5-2   Place more priority on resolution of issues related to state water quality standards and related
      programs in agreements between the Region and the State, and the Region and the Office of
      Water. This should include specific actions EPA will take to resolve these problems.

      The Region has increased its efforts to resolve the outstanding water quality standards issues.
      Specifically, the water quality standards program has taken the following steps to address
      documented deficiencies. The Region has received a commitment from the State to complete a
      Triennial Review in FY 2000. This Triennial review will include a revised PCP criterion. The
      Region has included the Mississippi Triennial review as one of its three FY 2000 formal water
      quality standards actions documented in the Region=s Office of Water Management
      Agreement. The State=s antidegradation implementation procedures are undergoing active
      review and we expect these procedures to be finalized by December 1999.

      Also, the Region is continuing to provide its extensive monitoring and water quality modeling
      support to the State to determine the appropriate dissolved oxygen criteria for the Escatawpa
      River. The Region will be conducting additional sediment monitoring in May 2000 and will
      complete the model calibration and perform the TMDL calculations, using the new dissolved
      oxygen criteria, by December 2000. This time frame is required in the Mississippi TMDL
      Consent Decree.

              Milestone:

                      April 1, 2000 -- EPA Region 4 will ensure that the State must either a)
                      complete the UAA and associated standards revisions, if necessary or b)
                      present a milestone schedule of activities, by April 1, 2000.

5-3   Provide more aggressive oversight and technical assistance, where needed, to ensure that
      problems related to water quality standards and reporting are timely resolved.

      The Region is committed to providing more effective oversight and technical assistance as
      Agency resources allow. The Region has taken two key steps to ensure that significant issues
      related to water quality standards and other programs are addressed in a timely manner. In
      1999, the Region initiated a pilot study with Mississippi programs to enhance the Region and
      State Performance Partnership Agreement process. Specifically, the process is being modified
      to ensure critical programmatic issues, such as disapproved water quality standards are
      documented as mutual priorities for prompt resolution. In addition, the Water management
      Division revised its State mid-year review process in 1999. The principal modification of the
      mid-year process is that significant issues are raised formally at the Division Director level and
      that State and EPA program commitments are documented to ensure resolution of these
      significant issuer in a timely manner.

              Milestone Date:

                      October 1, 1999 B Performance Partnership Agreement between Mississippi

                                                     45                                Report No. 1999-P00219
                                                                      Mississippi== s Water Quality Standards,
                                                                                     Monitoring, and Reporting

                     and EPA in place.
                     October 31, 1999 - End of Year report complete.

                     May 1, 2000 - Midyear report complete

5-4   Coordinate with EPA Headquarters to promulgate standards if states do not correct the
      deficiencies in standards within the 90 days allowed by the Clean Water Act.

      The Office of Water has proposed new regulations, projected to be finalized by April 2000,
      that would require EPA approval of a state=s newly adopted water quality standard before that
      state standard could become effective. Therefore, if EPA disapproved a state water quality
      standard under these new regulations, the disapproved state standards would be voided. For
      cases where a previously approved standard was in place, EPA would reinstate that standard
      by administrative order , without having to formally promulgate a federal water quality
      standard. For cases where new criteria or antidegradation policy had not been previously
      approved, EPA is preparing default criteria and antidegradation policy regulations that would
      be promptly promulgated to replace the disapproved state standards.

             Milestone Date:

                     April 30, 2000 B OW will establish new water quality standards regulations
                     that will enhance EPA=s ability to promulgate standards for a state where EPA
                     has disapproved a state=s standard.




                                                  46                                Report No. 1999-P00219
                                                                       Mississippi== s Water Quality Standards,
                                                                                      Monitoring, and Reporting

                                                                            APPENDIX II
                                       DISTRIBUTION


Office of Inspector General

       Inspector General (2410)
       Assistant Inspector General for Audit (2421)
       Deputy Assistant Inspector General for Internal Audits (2421)
       Headquarters Audit Liaison (2421)
       Divisional Inspectors General for Audit

EPA Headquarters Offices

       Assistant Administrator for Water (4101)
       Agency Followup Official (2710)
       Agency Followup Coordinator (3304)
       Associate Administrator for Congressional and Legislative Affairs (1301)
       Associate Administrator for Communications, Education, and Public Affairs (1701)
       Director, Regional Operations (1108)

Region 4

       Regional Administrator
       Director, Water Management Division (WMD)
       Chief, Geographic Planning and Technical Support Branch, WMD
       Audit Liaison

Mississippi Department of Environmental Quality

       Director
       Chief, Surface Water Division




                                                  47                                 Report No. 1999-P00219
                                        Mississippi== s Water Quality Standards,
                                                       Monitoring, and Reporting




(This page intentionally left blank.)




                    48                                Report No. 1999-P00219
